<html>
<title> - DOE'S OFFICE OF SCIENCE</title>
<body><pre>[Senate Hearing 108-138]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-138

                        DOE'S OFFICE OF SCIENCE

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

THE ROLE OF THE DEPARTMENT OF ENERGY'S OFFICE OF SCIENCE IN SUPPORTING 
                BASIC RESEARCH IN THE PHYSICAL SCIENCES

                               __________

                             JULY 29, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

89-732              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                         Subcommittee on Energy

                  LAMAR ALEXANDER, Tennessee, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

JAMES M. TALENT, Missouri            BOB GRAHAM, Florida
JIM BUNNING, Kentucky                DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
LARRY E. CRAIG, Idaho                EVAN BAYH, Indiana
CONRAD BURNS, Montana                CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Pete Lyons, Professional Staff Member
                  Jonathan Epstein, Legislative Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Abraham, Hon. Spencer, Secretary, Department of Energy, 
  accompanied by Raymond Orbach, Ph.D., Director, Office of 
  Science........................................................     4
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     1
Clough, Dr. G. Wayne, President, Georgia Institute of Technology.    24
Grunder, Hermann A., Ph.D., Director, Argonne National Laboratory    14
Richter, Burton, Ph.D., Nobel Laureate, Former Director, Stanford 
  Linear Accelerator Center......................................    18

 
                        DOE'S OFFICE OF SCIENCE

                              ----------                              


                         TUESDAY, JULY 29, 2003

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lamar 
Alexander presiding.

 OPENING STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM 
                           TENNESSEE

    Senator Alexander. The hearing will come to order. Let me 
welcome you all to this hearing, where we are talking about the 
future of our country in terms of science and jobs, is the way 
I would like to put it. We especially welcome the Secretary of 
Energy, Spencer Abraham, and Dr. Orbach, the Director of the 
Office of Science in the Department of Energy. I think it says 
a great deal about the priority that the administration and the 
Secretary place on science that he would take the time to be 
here during a very busy week when the energy bill is before the 
Congress.
    Dr. Grunder and Dr. Richter and Dr. Clough, who we will be 
hearing from a little later, we thank you very much. We thank 
you very much for coming.
    I would like, before I present Secretary Abraham, I would 
like to begin this discussion with a story. I know the 
Secretary is going to try to put the subject today in some sort 
of more vivid terms than we sometimes talk about in science, 
but here is one way it is vivid, vivid to me. Over the last 20 
years in my home State of Tennessee the automotive industry has 
moved in and today about a third of our manufacturing jobs are 
automotive jobs. 20 years ago virtually none of our 
manufacturing jobs were automotive jobs.
    What that has meant for families in Tennessee over that 20-
year period is that we have moved from about the third poorest 
State to one of the most rapidly growing States in family 
incomes.
    One of our greatest challenges as a country is how do we 
keep our good jobs in America in a time of world competition. 
Well, the answer to that is technology and science. We see it 
in an everyday form in the nearly 1,000 auto parts suppliers we 
have in Tennessee. They could be anywhere in the world. There 
are some reasons they are in the United States. One is that 
auto assembly plants like just-in-time delivery. But there is 
another reason they are here and it is technology.
    In those auto parts plants, which might be one, two, or 300 
persons, the labor costs are typically only 15, 20 percent of 
their entire costs. So even though wages in other countries 
might be lower, it is not worthwhile to move somewhere else. 
The reason they are able to stay in our State, in our country, 
is because they have a technology advantage
    The National Academy of Sciences has estimated that more 
than half of our economic growth since World War II has come 
because of advances in science and technology. What we want to 
talk about today is to look to the future, when we are sure 
that in a time of worldwide competition for jobs a big part of 
our chance to keep our high standard of living comes from our 
edge in science and technology, and we have what I would call 
some secret weapons in the pursuit of that science and 
technology.
    One is the national laboratories, which Secretary Abraham 
and Dr. Orbach visited one of those at Oak Ridge on Friday, 
which we appreciated very much. And the other is our great 
research universities, which no other country in the world has 
quite as we have.
    So we want today to look ahead, to look to the future, and 
talk about plans, ideas, concepts, and level of funding to 
support the physical sciences especially.
    I want to again thank Secretary Abraham for being here. He 
is no stranger to the U.S. Senate. He has served here himself. 
When he was here he was a champion for science and technology. 
He has been an activist Secretary. Witness his visit on Friday 
to the Oak Ridge Laboratory and his many other visits.
    Today we want to focus on arguably the brightest star in 
the Department of Energy, the Office of Science. Dr. Orbach, 
who heads that office, is here. Thank you for coming. The 
Department of Energy's Office of Science is the Nation's 
largest supporter of basic research in the physical sciences 
and plays a dominant role in supporting the activities in 
mathematics and computing. The office also plays a unique and 
critical role in scientific computation, climate change, 
geophysics, genomics, and life sciences.
    The Office of Science is a key sponsor of research at our 
universities and national laboratories. I mentioned earlier 
that I view those universities--I was formerly president of one 
of those universities, those research universities--and our 
national laboratories as our Nation's secret weapons in our 
pursuit of a high standard of living for the future. They 
performed the basic research that leads to the technologies of 
tomorrow and educate our next generation of scientists. We 
cannot prosper if we do not invest in those research 
universities and national laboratories.
    The Academy of Science estimates that more than 50 percent 
of our economic growth in the last half century is a direct 
result of investments in science-driven technology. Clearly, we 
must invest more to maintain and improve the quality of our 
lives.
    Last fall, the President's Council of Advisers on Science 
and Technology reported that research and development funding 
was becoming dangerously imbalanced and recommended that the 
funding levels for physical sciences and for engineering be 
enhanced and that funding levels be brought to parity with the 
life sciences. We are fortunate to have Dr. Clough here to 
speak about this issue since he chaired the President's Council 
that made this recommendation to the President. He is the 
president of one of the great research universities, Georgia 
Tech.
    The research and development title of the energy bill 
corrects the recent trend toward flat-lining funding for the 
basic sciences by substantially increasing the authorization 
levels for the Department of Energy in these areas, especially 
the Office of Science. The Nation must have a balanced 
investment to maintain the overall health of science and 
technology research.
    The National Institutes of Health, the National Science 
Foundation, and the DOE Office of Science are the largest 
supporters of non-defense research and development. Recent 
funding increases in NIH and the National Science Foundation 
cannot compensate for the declines in funding at Federal 
agencies such as the Department of Energy. We have more than 
doubled funding for the NIH--we ought to give previous 
Congresses a pat on the back--and are on track to double 
funding for the NSF. Both of those have been a priority of 
President Bush and the Congress.
    We must take action to address the funding situation for 
the DOE Office of Science. There is a chart that roughly gives 
a picture that is mostly good news. Let us not dwell on bad 
news. Let us focus on good news, that we have done a good job 
with NIH, we have done a good job with NSF, and our focus today 
is to try to put more attention to the Office of Science.
    Much of the basic work in the physical sciences on which 
all other science, even the biological sciences, is based is 
supported by the Department of Energy. The Department conducts 
much of this work itself at the national laboratories, one of 
the crown jewels of our Federal Government. Harold Varmus, 
Nobel laureate and former Director of NIH, summed up nicely the 
unique relationship between the medical and physical sciences 
in an editorial in the Washington Post. He stated, and I quote:
    ``Medical science can visualize the inner workings of the 
body. These techniques are the work horses of medical 
diagnoses, and not a single one of them could have been 
developed without the contribution of scientists such as 
mathematicians, physicists, and chemists supported by agencies 
currently at risk.''
    This statement was made nearly 3 years ago, but it is still 
true today for the DOE Office of Science. Many examples can be 
cited to describe the impact of our past investments in science 
and technology on the quality of our lives and economy, and our 
witnesses will do that today. The contributions continue today. 
The scientific disciplines are working together on addressing 
the needs of our society.
    Mr. Secretary, I look forward to learning more about the 
impact that the Office of Science has had on our economic 
growth and quality of life and about the vision for the future 
of the Office of Science. I look forward to hearing from you 
how we can work together, the administration and the Congress, 
to gain more support for the Office of Science.
    From our other distinguished panelists, I look forward to 
learning about the role of the Office of Science and the role 
it plays in supporting groundbreaking research that has led to 
75 Nobel Prizes for Department of Energy researchers, about the 
role of the national laboratories in supporting the mission of 
the office, and about the support that is provided to the 
colleges and universities to create the next generation of 
scientists. The quality of our lives and our prosperity can 
only be enhanced when we invest in the science and technology 
that is in large part sponsored by the DOE Office of Science.
    We will hear from our witnesses today in two panels. Panel 
one will be the Secretary himself. Dr. Orbach is here with him. 
Mr. Secretary, I have really introduced you, but we welcome the 
former Senator and the activist Secretary and thank him for 
taking time to come during a very busy week.

  STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY, DEPARTMENT OF 
ENERGY, ACCOMPANIED BY RAYMOND ORBACH, PH.D., DIRECTOR, OFFICE 
                           OF SCIENCE

    Secretary Abraham. First of all, Mr. Chairman, I want to 
thank you for including us and for inviting both myself and Dr. 
Orbach to participate. I am going to comment on Ray Orbach in a 
moment when I finish my testimony, but I want to begin just by 
saying this, that you have demonstrated just in your opening 
comments and I think the members of the committee and 
subcommittee very much understand the critical role that our 
Department plays in fostering basic scientific research and how 
that of course is the foundation for national security and 
economic growth in this country.
    As you know, when we were at Oak Ridge just a few days ago 
to celebrate the groundbreaking for one of our new nanoscience 
centers and to tour the Spallation Neutron Source, we saw 
firsthand in your State the remarkable projects that this 
Department oversees. I know that you share our enthusiasm and 
excitement over these projects because they really represent 
the future of science in America.
    When I was invited to participate, I spent a fair amount of 
time trying to figure out how to write a speech that would 
encapsulate some of the exciting things that go on in the 
Department. I would have to say that one of the challenges we 
have is to give people a better understanding, not people who 
are directly involved in our programs but the wider audience of 
people who care about these issues, a better understanding 
about not just what our basic science and research programs 
themselves are, but how they relate, how they are applied to 
accomplishments that are more familiar to both members of 
Congress and the American people.
    After a while, I realized that the enthusiasm and the 
excitement which we have is hard to convey in mere written 
words and so what we thought we might do is to sort of divide 
my opening presentation here into two parts. The first part and 
the longer part will be a video that I think gives a good sense 
of some of the things we have done and are doing; and then I 
will have a brief summary to offer at the very end before we 
might turn to questions.
    So let me at this point cue the audiovisual experts who are 
here today and see if we can get this video to play on the 
screen.
    [A videotape was displayed, the sound track of which is 
transcribed as follows:]

    Voiceover: The Department of Energy's Office of Science is 
heir to the revolutionary work of Albert Einstein, Enrico 
Fermi, and E.O. Lawrence. The Department makes history every 
day, because we sustain their tradition of innovative basic 
scientific research that improves our lives. Witness the more 
than 40 Nobel Prize winners supported by DOE science.
    We are the steward of America's national laboratories, the 
backbone of American science. At these labs and at universities 
in virtually every State, DOE supports research in materials 
science, fusion energy, high energy and nuclear physics, basic 
energy sciences, biological and environmental science, advanced 
computation, and more.
    Our multidisciplinary approach brings together the world's 
best scientists to tackle national challenges--energy security, 
defense against terrorism, and environmental cleanup. Over the 
years our basic research has protected America's security, 
created new industries, new products, and boosted economic 
growth.
    Of course, very often even our own scientists cannot 
anticipate the impact of their research. At the particle 
accelerators at Fermi, Brookhaven, and other national labs, we 
began work decades ago to understand the fundamental nature of 
matter and energy. But along the way, we also found the science 
used in our accelerators could provide miraculous new tools for 
the diagnosis and treatment of disease.
    Development of PET scans and MRI's was underpinned by our 
nuclear, high energy, and condensed matter physics research. 
Every day 10,000 cancer patients are treated with electron 
beams from linear accelerators developed by this research, and 
PET scans help develop new treatments for everything from drug 
addiction to degenerative diseases.
    We do fundamental research in materials science to perfect 
everything from gas turbines to solar cells. Now we are 
applying what we have learned about materials to help blind 
people regain sight using an artificial retina. In early tests, 
a blind person has made out letters for the first time in 50 
years. Eventually this technology may help restore sight to 
millions of blind and visually impaired people, and some day we 
may be able to adapt this same technology to help those with 
spinal cord injuries, Parkinson's disease, deafness, and almost 
any disease associated with the body's electrical system.
    For decades we have also done basic research on radiation's 
impact on human cells. We have learned that the best way to 
understand the cell is to understand the genes that direct it. 
That led to our launching the Human Genome Project. DOE labs 
developed the technology used to speed the mapping process and 
because of our initiative others are now looking at gene 
therapies for cystic fibrosis, sickle cell anemia, diabetes and 
cancer.
    This knowledge is now being applied in novel ways. We play 
to use genetic techniques to harness the power of a new class 
of microbes that can eat pollution, create hydrogen, and absorb 
carbon dioxide. Some day we believe a colony of specially 
designed microbes, living adjacent to the smokestack of a coal-
fired powerplant, could eat all its pollutants, all its 
CO<INF>2</INF>, and make it as clean a fuel source as 
hydropower. This is science, not science fiction.
    DOE science is always looking toward the future. At Oak 
Ridge National Lab, we are building the largest civilian 
science project in the United States, the Spallation Neutron 
Source. Research there may lead to all sorts of advances--
artificial blood, medical implants that last a lifetime, or 
superconducting wires to dramatically reduce energy costs.
    Still more progress can be expected through the wonders of 
nanoscience, where DOE is already a leader. Five unique 
nanoscience research centers are soon to be built at our 
national labs that will help make computers the size of a grain 
of salt, sensor systems that detect emerging disease in the 
body, biodegradable chemicals for nourishing plants and 
protecting against insects, and machines so small they can 
enter a patient's bloodstream, fine clogged arteries, and clean 
them out. The potential of nanoscience is impossible to 
measure.
    So is the promise of fusion, the power of the sun and the 
stars. Fusion energy is virtually emission free, has no long-
term waste problems, and could produce the large amounts of 
electric power that the world needs. What is more, it can 
produce electricity during the day and hydrogen for hydrogen 
fuel cells at night.
    Working at our labs and using our world-class facilities, 
men and women with extraordinary talent and dedication have 
done great science leading to great public benefits. From 
clean, abundant, and affordable energy to restoring our 
environment, to medical breakthroughs, DOE has looked to 
science for answers. Investment in DOE science will continue to 
pay off for us all.

    [End of videotape.]
    Secretary Abraham. Thank you.
    Senator Alexander. Thank you, Mr. Secretary.
    Secretary Abraham. Mr. Chairman, thanks for letting us use 
the video. You may remember that in the video I made reference 
to the great promise of nanoscience, and you and I were at the 
groundbreaking for one of our tech centers in Oak Ridge just a 
few days ago. So you can imagine my surprise and delight when I 
saw the headline yesterday in the Science Notebook section of 
the Washington Post ``The Smallest Synthetic Motor.'' Developed 
by our Lawrence Berkeley National Laboratory, the device is 300 
times smaller than the diameter of a human hair. The potential 
of nanoscience as demonstrated in that announcement is already 
upon us.
    Let me just conclude by stressing just how seriously we 
take our responsibility as stewards of science at the 
Department. We have established a special subcommittee of my 
secretarial advisory board under MIT President Chuck Vest to 
recommend how we can make our science program at the Department 
more effective. Under Dr. Orbach's leadership, we are looking 
at a 20-year road map for future scientific facilities to 
answer the question of which facilities should be built and in 
what sequence to maintain America's primacy in science and 
technology.
    We have made a major commitment to the future of fusion 
this year by joining ITER and we are fully funding the 
construction, as I mentioned, of all five nanoscience centers, 
like the one which we broke ground on at Oak Ridge.
    There needs I think, Mr. Chairman, to be a broader 
appreciation of the critical role that basic science research 
plays in future economic growth and national security. Quite 
frankly, there needs to be a greater appreciation of what the 
Department of Energy has done, both in the past and what it can 
do in the future for science, technology, and prosperity.
    The Office of Science, as you have already indicated, is 
one of America's best kept secrets. With this committee's help, 
I hope we can change that. I think, Mr. Chairman, if we all do 
our job, perhaps in 20 to 30 years my successor can come before 
this committee and explain how the investments in science we 
made today and in the ensuing years have benefited the American 
people.
    What might that Secretary of Energy say? I would hope that 
he or she could say that, after successful completion of the 
ITER experiment, we are now ready to build a demonstration 
fusion powerplant to deliver electric power to the grid, that 
the materials discovered by our nanoscience centers have made 
hydrogen storage a breeze, automobiles extraordinarily light 
yet safe and incredibly stronger, and have engines with 
virtually no friction.
    That Secretary might report the end of our environmental 
cleanup program due to the appetite for waste of the 
genetically modified microbes at work at the contaminated sites 
around the Nation. And this committee might learn of the 
petaflop supercomputer recently deployed at one of our labs 
that has zeroed in on a host of climate mysteries and now lets 
us predict hurricanes weeks in advance.
    This is just speculation, obviously, today. But given what 
the Department of Energy science has accomplished over the last 
decades, it may even be a conservative look at the future.
    So, Mr. Chairman, I want to thank you for inviting me. I 
also want to acknowledge, as I did briefly, that joining me 
here today is Dr. Ray Orbach, who has done a terrific job in 
his tenure as the head of our Office of Science. He brings, 
like you, university presidency experience and so he 
understands not just how work gets done on the front lines as a 
scientist in his own right, but also how to manage a very large 
and diverse scientific community that he oversees. I want to 
thank Ray publicly for the great job he has been doing.
    I also wish to just acknowledge, although they are not on 
this panel, but two of the people that I have come to know and 
have developed tremendous admiration for, part of our complex: 
Dr. Hermann Grunder, who heads our Argonne Laboratory, and he 
will be on the next panel; and Dr. Burt Richter, one of the 
laureates that I mentioned or referred to in our video. Really, 
I want to thank Burt for his leadership on the whole broad 
topic of how to better tell this story. I think it has really 
been in no small measure thanks to his commitment that we have 
been able over the last months to really get a broader audience 
for the work that we do.
    So to all of the panelists in the next panel, I want to 
just thank them for their participation today.
    [The prepared statement of Secretary Abraham follows:]

        Prepared Statement of Hon. Spencer Abraham, Secretary, 
                          Department of Energy

    Mr. Chairman, members of the Subcommittee, thank you for asking me 
to testify today on the Department of Energy's Office of Science. I am 
joined by Dr. Raymond Orbach, who leads that office.
    This Committee understands the central role DOE plays in fostering 
basic scientific research, which is the foundation for economic growth 
and national security in this country. In fact, just over a week ago 
the Chairman and I were at Oak Ridge National Lab to celebrate a ground 
breaking for one of our new nanoscience centers and to tour the 
Spallation Neutron Source. I know the Chairman shares my enthusiasm and 
excitement over these projects. They are truly the future of science in 
America.
    So, I commend this Committee for its support of these labs and for 
its support of our Office of Science, which is charged with stewardship 
for 10 of our civilian laboratories.
    When I was a member of the Senate, I was a strong proponent of 
federal support of science. I backed legislation doubling the budget 
for NIH and NSF.
    We must, however, also pay greater attention to DOE's Office of 
Science, which has broad responsibility for the future of much of the 
physical sciences in America. I don't think there is a full 
appreciation of how the achievements and the public benefits in public 
health, telecommunications, supercomputing, to name just a few 
examples, are dependent upon progress in the physical sciences.
    Mr. Chairman, no one has made this connection any clearer than 
former NIH Director Harold Varmus: ``Medical advances,'' he wrote, 
``may seem like wizardry. But pull back the curtain, and sitting at the 
lever is a high-energy physicist, a combinational chemist or an 
engineer. Magnetic resonance imaging is an excellent example. Perhaps 
the last century's greatest advance in diagnosis, MRI is the product of 
atomic, nuclear and high-energy physics, quantum chemistry, computer 
science, cryogenics, solid state physics and applied medicine.''
    Particle accelerators, like those at Fermi, Brookhaven, and 
Stanford Labs have given us technologies to develop MRIs, and PET 
scans, as well as insights into the fundamental properties of matter 
and energy.
    Fundamental research is going to help us move successfully toward a 
hydrogen economy, to effect carbon sequestration, and to the Generation 
IV nuclear reactor. Each of these Presidential initiatives will require 
that we solve some important challenges, particularly in the area of 
materials. Again, we will need to look to the physical sciences.
    So, there is no question that the evolution of technology requires 
a robust basic research program in the physical sciences . . . that 
basic research program is my responsibility as Secretary of Energy and 
I want to ensure this committee that I take that responsibility 
seriously.
    We have established a special subcommittee of my advisory board 
under MIT President Chuck Vest to recommend how we can make our science 
program at DOE more effective. We are looking at a 20-year roadmap for 
future scientific facilities to answer the question of which facilities 
should be built and in what sequence to maintain U.S. primacy in 
science and technology. We have made a major commitment to the future 
of fusion energy by joining in negotiations to construct ITER, and we 
are funding construction of all five nanoscience centers like the one 
you and I broke ground on at Oak Ridge.
    There needs to be a broader appreciation of the critical role basic 
scientific research plays in future economic growth and national 
security, and quite frankly there needs to be a greater appreciation of 
what DOE has done in the past and can do in the future for science, 
technology, and future prosperity.
    The Office of Science is one of America's best kept secrets in 
government. With this Committee's help, I hope to change that.
    Let me give you some examples how we are making a difference in 
people's lives.
    DOE science has helped to create an artificial retina that can 
restore sight to the blind. Why, some may ask, is the Department of 
Energy working on blindness? Because we are the primary home of the 
physical sciences in the United States, and you need chemists, material 
scientists, physicists, electrical engineers, and many other 
disciplines working together to make a device small enough and tough 
enough to live in a human retina and replace its functions. Five 
national labs, with Oak Ridge as the lead, Mr. Chairman, joined 
together with private institutes to build this retina, which in early 
tests has allowed formerly sightless individuals to see light and dark, 
to identify common objects by sight, and even to read large letters. 
And this is just the beginning.
    We began the program to map the human genome when others felt it 
would be impossible, and we used our expertise in the physical sciences 
and computing to develop the techniques that allowed its completion two 
years ahead of schedule. We can now map 2 billion base pairs a month, 
or two human genomes a year.
    I hardly need to remind this Committee of the impact DNA mapping 
has had. Gene therapies for cystic fibrosis, sickle cell anemia, 
diabetes and cancer are something we read about often now. Great 
advances are certainly on the way.
    This knowledge is now being applied in novel ways by DOE science. 
We are going to attempt to use genetic techniques to harness microbes 
to eat pollution, create hydrogen, and absorb carbon dioxide. The 
possibilities here are tremendous. In the future, we may see 
communities of microbes absorbing the pollutants from coal fired power 
plants--including CO<INF>2</INF>--making coal as clean a fuel source as 
hydropower.
    I mentioned our five nanoscience centers. When they are all up and 
running by 2008, we'll have a suite of discovery centers unmatched by 
anything in the world. Each is connected to a major light or neutron 
source, allowing researches to literally see, move, and create at the 
atomic level. This is allowing design of nanoparticles that deliver 
medicines to specific cellular sites, such as cancer cells. I'm told 
they hope to develop materials that will self-repair stress cracks and 
other results of fatigue that can be used in aircraft and automobiles.
    Our basic research has, of course, touched virtually every aspect 
of energy resources, production, waste, and storage. Examples include: 
High-energy lithium batteries, now in common use; non-brittle ceramics 
now used in engine turbines; and catalysts for more energy efficient 
processes in the chemical industry.
    We are also exploring the most basic questions about the nature of 
our universe. Office of Science researchers from Lawrence Berkeley 
National Laboratory found that the expansion of the universe is being 
accelerated by a previously undiscovered force we are calling ``Dark 
Energy'', and at Brookhaven we recently re-created a state of matter 
comparable to that which existed a microsecond after the big bang 
nearly14 billion years ago in order to study the early evolution of the 
universe.
    There is much more, of course. Our computers have given us greater 
technical confidence that fusion power could work; our combustion 
researchers are running diesel engines in their labs to boost 
efficiency and reduce emissions; and our labs are looking at 
revolutionary ways to store and move electricity.
    In all these areas, and many others, the physical sciences are 
delivering clear and broad benefits to the nation. Still, the fruits of 
basic research are often hard to quantify because they are only 
realized over many years, sometimes decades. So all of us have to 
continue to make the case for fundamental research.
    If we do that, perhaps in 20 to 30 years my successor can come 
before this Committee and explain how the investments we made today 
have ultimately paid off. What might that Secretary of Energy say?
    I would hope he or she could say that after successful completion 
of the ITER experiment, we are now ready to consider construction of a 
demonstration fusion power plant to deliver electric power to the grid; 
that the materials discovered by our nanoscience centers have made 
hydrogen storage a breeze, automobiles extraordinarily light, yet 
incredibly stronger, and engines with virtually no friction.
    The Secretary might report that the end of our environmental clean-
up program is in sight due to the appetite for waste of genetically 
modified microbes at work at contaminated sites around the nation. And 
this Committee might hear of climate modeling on incredibly advanced 
supercomputers that has resolved a host of climate mysteries and now 
let us predict hurricanes weeks in advance.
    This is just speculation of course. But given what DOE science has 
accomplished over the last decades, it may even be a conservative look 
at our future.
    Thank you again Mr. Chairman for inviting me to testify today. I 
would be pleased to take your questions.

    Senator Alexander. Thank you, Mr. Secretary. I want to 
compliment you for your testimony and the way you presented it. 
In the end, what a hearing like this is about is more money, 
the idea that we could better fund the Office of Science over 
time. But everybody wants more money and so it is no great 
testimony to come up before the U.S. Senate or Congress and say 
we would like to have more money, which is not what you did.
    You came up and presented a more important thing, which was 
to put in concrete terms some of the examples so that we could 
see in a more vivid way what we are talking about. Then at the 
end of your testimony you presented a vision for where we might 
be in 20 years. If that vision is presented in a compelling way 
time and time again, the money will come. The money follows 
great ideas. It follows great visions. So I am very pleased 
with that.
    I would like to be able over time to borrow that vision of 
yours and repeat it and enlarge on it. I would encourage you to 
enlarge and elaborate on it and set that vision out. It may be 
that, because we have a deficit this year, that we cannot in 
this year or next year reach the funding levels that we would 
like. But if we set the vision out here, we will get there 
sooner or later, and my idea is sooner.
    I wonder if we could take just a few minutes and almost 
engage in a conversation about your testimony, because you have 
a broad background in science and in jobs and in politics and 
government and are awfully well suited to this, to this 
discussion. For example, some of the major issues that are 
before this Congress right now come at the intersection of 
energy and environment. It almost brings us to an impasse, 
which is sometimes what I think we have on the energy bill.
    But the President has tried to look beyond that and many 
others are. For example, in clean air. There are only so many 
scrubbers that we can put on the top of a coal smokestack, a 
coal-powered plant, coal-fired powerplant. There is a limit to 
that. And we can keep capping and limiting old technology or we 
can think boldly and try to think of new technology.
    The President has recommended and I am glad to be the 
sponsor of the hydrogen car research which you mentioned. It 
may be 20 years away, but with the only emission as water. Just 
in very practical terms probably 40 percent of the ground ozone 
that we deal with in Tennessee in the air, which is too dirty, 
comes from emissions from cars and trucks. If we were all 
driving hydrogen vehicles, that would not--that 40 percent 
would not be there. You mentioned fusion, which you and the 
President have taken an important step on.
    Talk for a moment, if you will, about how you see the 
investments that we might make toward your vision affecting our 
ability both to have an adequate supply of low-cost energy, 
which we need for jobs, and cleaner air, which we also need?
    Secretary Abraham. Well, first, what we have tried to do is 
look at the science investments in the context of the way our 
Department is structured of how they can be integrated with the 
work that is done by some of the other energy resource 
divisions. So a lot of the work done in the labs is supportive 
of some of these very specific projects you mentioned.
    The Office of Science does a number of projects, works on a 
number of projects which relate directly to the development of 
the hydrogen economy that you referenced, that the President 
talked about in his speech. Areas of current research in the 
Office of Science alone involve work on catalysts and 
mechanisms for hydrogen storage, electrochemical energy 
conversion mechanisms, as well as projects that can lead to 
part of solving the riddle of hydrogen production at a 
competitive price.
    On the fusion front, the Department in the Office of 
Science has been the leader, really the world leader I think, 
in terms of fusion investments. The Office of Science probably 
invests about $250 million a year in our domestic program and 
this year, with Dr. Orbach's leadership, we have rejoined the 
ITER project which we think will help expedite the evolution 
towards that as an energy source.
    So if you just took those two alone--and we could talk 
about others, but just those two alone--we could talk about new 
energy sources which would be far cleaner sources of energy 
than virtually any today, or at least the energy sources they 
would likely replace. That would allow us on the one hand to 
have the affordable, available supply of energy we want. It 
would also lessen our dependence on foreign energy imports, 
while at the same time producing energy in an environmentally 
benign fashion.
    So those are just a couple of examples. The list goes on. 
As you saw in the video, one of the really exciting 
applications of the Human Genome Project is our Genomes to Life 
project line, in which we hope to be able to utilize the 
sequencing skills that have now been developed and the science 
behind it to develop microbes that can serve literally as 
pollution-eating or consuming organisms. If we are successful 
in that application, we have the ability in a much different 
way, as opposed to the scrubber technologies that you 
reference, to address the challenge that we have in this 
country of having on the one hand a 250-year supply of coal and 
on the other hand an environmental, a set of environmental 
standards we must meet and wish to meet in order to protect our 
families and the health and safety of the American people.
    So those are just some of the examples that the video 
mentioned and that you brought up, but there are others as 
well.
    Senator Alexander. At Oak Ridge--well, one of the things 
that the Office of Science does is become involved in large 
projects in applied research.
    Secretary Abraham. Right.
    Senator Alexander. We saw one such project at Oak Ridge on 
Friday with the Spallation Neutron Source. One of the most 
interesting things about that was the cooperation among 
different laboratories. You had the director of a laboratory 
from California there who had created one of the major 
installation which had been built there, then taken down, and 
then put back up at Oak Ridge.
    In other testimony that I have heard there is a lot of 
suggestion that the future the laboratories will be enhanced if 
the laboratory directors are able to work together on large 
missions. What are you doing from a management point of view to 
make that easier for the directors to do and the labs to work 
together?
    Secretary Abraham. Well, we obviously on a frequent basis 
have the management together. The lab directors meet as a group 
with our senior leadership. I will maybe defer to Ray to 
comment specifically on some of the mechanical aspects of it. 
But you did mention, I think as a good example, the Spallation 
Neutron Source and how we have the partnership of Berkeley Lab 
and Oak Ridge as a key ingredient in its success, and I think 
that you see other examples of that.
    Now, obviously in a project as big as that one it is sort 
of obviously beneficial to bring together several different 
leaders and organizations. But I think the same kind of--we 
expect the same kind of benefit to come from having established 
the nanoscience program with five lead laboratories, but we 
fully expect to see a certain integration, a certain synergy, 
that would evolve from having the experts at these different 
facilities in touch with each other and analyzing different 
project lines together.
    Ray, do you want to?
    Dr. Orbach. Thank you, Mr. Secretary.
    I would first like to thank Senator Alexander and yourself, 
Mr. Secretary, for your very kind comments about the Office of 
Science and myself in particular.
    The Spallation Neutron Source, as you pointed out, Senator 
Alexander, is a perfect example of laboratories working 
together. Five of our national laboratories contributed 
essential elements to the machine itself, ranging from the 
accelerating portion that you saw that was developed by 
Berkeley to some of the RF cavities by Jefferson Laboratory to 
assistance from Argonne and from Los Alamos National 
Laboratory.
    The laboratory directors in the Office of Science meet with 
me on a quarterly basis and we have frequent telephone 
conversations between us so that we stay in touch and talk 
about collaborative efforts that would enhance the value of the 
research of any given laboratory.
    Another very good example is advanced scientific 
computation, where every laboratory is playing a role as we 
begin to experiment with new architectures in computation, and 
the laboratories are working together with the vendors to 
develop new architectures.
    So we work very closely together, both at the management 
level and at the scientific level, between all the laboratories 
in the Department of Energy.
    Senator Alexander. Thank you, Dr. Orbach.
    I have a couple more questions if I may and then we will go 
on to the second panel. Senator Domenici is holding a series of 
hearings on the governance of the laboratories which have been 
very interesting, very interesting hearings, trying to take a 
look at the future. I wonder, Mr. Secretary. I think about--I 
have thought about this often over the years as I have looked 
at the laboratories.
    On the one hand, the laboratories have a set of 
responsibilities and in those responsibilities there can be no 
failure. That would be the objective. These have to do with 
security and these have to do with management and these have to 
do with cleanup of toxic wastes, and no mistakes has got to be 
the goal there.
    On the other hand, the mission of the laboratory is a 
scientific-based mission and a big part of science is just 
failure after failure after failure. I mean, Edison talked 
about how he failed 800 times and then he invented the 
lightbulb, or whatever the story is.
    How do you reconcile those two, those two activities at our 
laboratories? How do you keep from micromanaging the scientists 
while you are working hard to make sure that on the non-
scientific operations you are avoiding failures of security, 
etcetera?
    Secretary Abraham. Well, first of all, I think that there 
is a clear distinction between the safety and security issues 
and the experimental work that is conducted. It is my 
observation to this point that that was always a challenge, but 
that most of the people who have been associated with these 
laboratories, whether it is the science laboratories or the 
weapons laboratories, over a long period of time have been able 
to appreciate and deal with that potentially challenging 
diverse set of circumstances.
    We accept no tolerance or zero tolerance, if you would, for 
anything short of 100 percent effectiveness in terms of 
security and safety. Those levels are maintained at the highest 
possible standard and consequences ensue if that is not met. I 
do not think that is inseparable from having good science. I 
think it poses challenges that, fortunately, our excellent lab 
directors can and do have to work with.
    But this Department's preceding or predecessor 
organizations dating all the way back to the Manhattan Project 
have had these kind of challenges, and we have had to work our 
way through them. I think we continue to do so. We have tried 
to certainly send a signal, though, that we want to stimulate 
as much creative thinking as we can, but within the context 
that the work we do has extraordinary national security and 
public safety implications.
    But I think most people at the facilities appreciate that. 
I think we have also been endeavoring to make sure that people 
are aware. If things do not go well, people know about it, 
because we do not keep secrets. So whenever something does not 
go well, it is well known. But the many, many, many things 
which these labs do which work well tend not to be well known, 
which is why we appreciate the chance today to talk about it.
    Senator Alexander. My last question, Mr. Secretary, is 
this. I think back 10, 12 years ago when I was Education 
Secretary and after I was finished I looked back on that, and 
one of the failures I thought or one of the things I did not do 
as well as I thought I should have was to be more active in 
support of the research universities. As I looked through the 
organization of the first Bush administration, I am not sure we 
had anybody on point in terms of looking at the whole Federal 
Government's attitude toward and support for major research 
universities. We do with the laboratories. That is your job. 
That is the Department of Energy.
    But when you go to research universities, and of course 
they do not want too much government attention, but at that 
time we were having a whole series of issues with research 
universities who had problems with the amount of overhead they 
had charged and most of that concern was lodged over in the 
Defense Department.
    Well, the Defense Department does a lot of funding of our 
research, but I would think there would be, as we look ahead to 
major investments in science and technology, as we consider the 
fact that no other country in the world has anything quite like 
our major research universities, that there should be someone 
within a presidential administration on point to pay attention 
to the universities and in support of their research activities 
in the same way the Secretary of Energy does for the 
laboratories.
    How is that organized in this administration? Who is on 
point?
    Secretary Abraham. I do not want to speak for people who 
are not here, but my impression has been at both the Department 
of Education--you would know that as well as anyone, but that 
also Jack Marburger, who is the President's Science and 
Technology Adviser, plays a role in this.
    On the other hand, I think we should not underestimate the 
extent to which the laboratories that are part of the 
Department of Energy have a close working relationship with 
research universities all over the country. In fact, if you 
look at the outside users of the facilities which we provide, 
there has been a sharp increase in terms of that level of 
activity over the last 8 to 10 years.
    Ray may want to comment on this in terms of how it is 
organized. I know that it is done in a very methodical fashion 
in terms of, for example, at our accelerator facilities, just 
our light sources and the use of those facilities, we have a 
very specific set of protocols that allow outside institutions, 
about I think 50 percent of which are research universities, to 
have access to that free of charge, to have access to those 
light sources for the kind of experimental work they might 
conduct.
    Now, there are very clear protocols that have been 
established to determine who will be granted top priority in 
terms of that access. So some of that actually is done within 
our Office of Science and, Ray, maybe you would like to just go 
ahead.
    Senator Alexander. Dr. Orbach.
    Dr. Orbach. We have a peer review process for access to our 
facilities and the research universities fare very well. In 
fact, if you look at the users of our light sources only about 
20 percent of those users are from the national laboratories. 
As the Secretary has said, more than half come from research 
universities.
    Another interesting factor is that, of the users of our 
light sources, over 25 percent are funded by NIH and about 10 
percent are funded by NSF. So it's not just the Department of 
Energy sources that are used to support university research at 
the facilities, but in fact it is the entire support structure 
of the Federal Government for research which helps the 
universities and university researchers come to the 
laboratories.
    Senator Alexander. Well, I thank you, Mr. Secretary, Dr. 
Orbach, for your excellent testimony. I welcome your vision of 
where we hope to go with the physical sciences and your 
explanation of how that affects Americans in our everyday 
lives. I look forward to working with you to develop the kind 
of funding base for those physical sciences to support that 
vision over the next few years.
    Thank you very much.
    Secretary Abraham. Thank you, Mr. Chairman.
    Dr. Orbach. Thank you.
    Senator Alexander. If our next panel of witnesses will come 
forward, please.
    Welcome to our next panel of witnesses. I will introduce 
them all now and then, starting with Dr. Grunder and Dr. 
Richter, then Dr. Clough, we will just--I will ask you to 
present your testimony. We have your full testimony. Let me 
suggest you take 5 to 7 minutes to summarize it if you would 
like and then we will have a conversation about that testimony.
    Dr. Hermann Grunder is Director of Argonne National 
Laboratory, recognized expert in nuclear physics, former 
Director of the Thomas Jefferson National Accelerator Facility, 
former Deputy Director for General Sciences at Lawrence 
Berkeley National Laboratory.
    Dr. Burton Richter, Nobel laureate and Emeritus Director of 
Stanford Linear Accelerator Center, winner of the Nobel Prize 
in Physics in 1976, member of the National Research Council, 
National Academy of Sciences.
    Dr. Wayne Clough, president of the Georgia Institute of 
Technology, member of the President's Council of Advisers on 
Science and Technology. Were you president of that council?
    Dr. Clough chaired the particular panel that dealt with the 
research and development, a member of the Executive Committee 
on the U.S. Council for Competitiveness, and a distinguished 
scholar.
    Thank you, gentlemen, for coming to this important 
discussion. Dr. Grunder, may we begin with your testimony.

   STATEMENT OF HERMANN A. GRUNDER, PH.D., DIRECTOR, ARGONNE 
                      NATIONAL LABORATORY

    Dr. Grunder. Thank you, Mr. Chairman. It is an 
extraordinary pleasure to be invited to give testimony to this 
distinguished committee. I have prepared a written statement 
and with your permission I would like to enter it into the 
record.
    Senator Alexander. It will be done.
    Dr. Grunder. Mr. Chairman, you have so eloquently 
summarized what I call the R&D establishment that I am not sure 
what new things I can add to it, but nevertheless let me try 
it.
    Senator Alexander. Well, the difference, Dr. Grunder, is 
that people might think you knew what you were talking about. 
So why do you not go right ahead.
    Dr. Grunder. Thank you very much, Mr. Chairman.
    Let me emphasize that we are very fortunate to have a 
Secretary who really appreciates research and development and 
the consequences of it, and we have an outstanding leader of 
the Office of Science, Assistant Secretary Orbach. He is not 
only a renowned scientist in his own right, he is also a good 
administrator, from one of our best research universities. He 
has indeed made a difference in streamlining the reporting 
procedure from the Secretary through Ray Orbach directly to the 
site. So let me just say that for the record.
    You mentioned the research universities and indeed, of the 
three R&D providers, the research universities have a unique 
importance. After all, it is the graduate student who adds with 
an incredible efficiency new knowledge to our knowledge base. 
It is the research scientist who then for a life-long career is 
continuing and expanding this knowledge. So therefore, after 
you have made so eloquently the relationship between science, 
technology, and our prosperity, our security, and simply our 
wellbeing and standard of living.
    We need to be sure that the graduate student at the 
beginning of this process has the most advanced research 
facilities in order to provide world-class science, because 
only on world-class science can we build world-class 
technology, and only on that is the accomplishment of economic 
growth.
    Let us now forget industry and the private sector. They 
actually perform two-thirds of the $300 billion annually which 
the United States spends on R&D. We understand that the 
development the industry mostly performs is the advanced stage 
of transforming technologies into useful products. That is just 
exactly the way it ought to be. I for one am very thankful to 
you, your committee, and your counterparts in the Executive 
Branch for having supported the R&D establishment over many, 
many decades.
    Now, as you know, the physical sciences, and as your chart 
shows--and again, I am superfluous from this aspect. This chart 
shows a worrying trend. Why so? Undoubtedly the 20th century 
was a century of the physical sciences, but the physical 
sciences have not only supported the technologies of today; 
they also have supported other sciences. The Holy Grail of 
biology in the 21st century, the complete simulation of a cell, 
would be unthinkable without the work, the instrumentation, and 
the computing capabilities the physical sciences developed over 
the last few decades.
    So if you do not support the physical sciences, that would 
be a worrisome trend because a very important component of the 
research and development or S&T activities would be starved. I 
know, Mr. Chairman, you understand all this, so just let me add 
my voice to it.
    Having said that, I would like to reemphasize the role of 
the national laboratories. The national laboratories come into 
play when multidisciplinary research teams, including 
engineering in its scientific aspect as well as engineering in 
its important role to build instrumentation and particularly 
large, one of a kind facilities, as you, the Secretary, and Ray 
Orbach alluded to, namely the user facilities. It is these 
facilities who give the researcher, be he or she out of 
industry, university, or national labs, an extended reach and 
an efficiency of completing the research, and in many, many 
cases, such as Burt and his Nobel Prize, was not possible 
without such facilities.
    So that is one of the main roles, multi-disciplinary 
research and user facility construction and maintenance. The 
Spallation Neutron Source is a wonderful example at Oak Ridge 
National Laboratory.
    What else can I say? If you want to know where at the 
moment we are concerned most about the funding, then it is on 
the long-term, high-risk research. It is that research which 
you on any one day can postpone, but in the long term it will 
have tragic consequences for the entire enterprise.
    So how much is enough funding, Mr. Chairman? In my personal 
view, science is adequately funded if the best and the 
brightest of our young people are choosing a career in science, 
because those people will choose a career in science because it 
has a certain stability and there is the opportunity to do 
world-class research on facilities second to none.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Grunder follows:]

      Prepared Statement of Hermann A. Grunder, Ph.D., Director, 
                      Argonne National Laboratory

    Chairman Alexander and other members of this Subcommittee, thank 
you for inviting me to testify about the unique role that the DOE's 
Office of Science plays in supporting basic research in the physical 
sciences. I have prepared this written statement, and with your 
permission, I would like to enter it into the record. I will briefly 
summarize my statement this morning.
    DOE's Office of Science has invested in basic scientific knowledge 
for more than half a century. Given the Department's dominant missions 
in national security and energy supply, DOE's Office of Science has 
become over this period the Federal government's primary sponsor of 
research in the physical sciences. Although DOE is a mission agency, 
its leaders have always recognized that it is impossible to know in 
advance exactly what discovery will prove crucial to its mission 
success. Therefore, DOE's investments through its Office of Science in 
research projects, facilities, and people have tended to broadly cover 
the physical, chemical, materials, and computational sciences and 
engineering, along with studies aimed at understanding and mitigating 
biological and environmental effects of its energy and national 
security work.
    Studies by the National Academy of Sciences have shown that more 
than half of our nation's economic growth stems from research and 
development. The nation's R&D enterprise lays the foundation for the 
future products and technologies that will keep Americans safe, secure, 
healthy, prosperous, and intellectually alive. History has proven that 
the basis for all fruitful R&D is a fundamental understanding of the 
laws of nature--a field of inquiry where DOE's Office of Science is a 
recognized leader.
    New fundamental facts are continually being discovered. They are 
continually leading to new technologies that benefit society often in 
surprising and unexpected ways. A telling example is Lord Rutherford's 
retrospectively naive comment, after discovering that there is a 
compact, massive nucleus deep inside every atom, that he was especially 
delighted to know that his discovery would have no practical 
application whatsoever. Of course, Lord Rutherford was wrong. What he 
considered knowledge for the sake of knowledge set the stage for 
nuclear medicine, nuclear energy, and many other modern advances.
    The R&D enterprise has three main components:
          1. Private-sector institutions and their research 
        laboratories;
          2. Universities and their research laboratories; and
          3. Federally funded R&D centers, including the national 
        laboratories.
    According to the National Science Foundation, industry plays the 
major role in the U.S. R&D enterprise. In 2002, industry accounted for 
two-thirds of the nation's overall $292 billion R&D expenditure. But 
with a few notable exceptions, financial pressures force industry to 
focus on applied projects with relatively short-term payoffs. This 
means that industry is hard-pressed to pursue the longer-term, 
fundamental science that is so important to our nation's future.
    Universities play a central role in the discovery of fundamental 
laws of nature. In a real sense, all R&D originates in universities, 
since they educate our scientists and engineers. It is the graduate 
students who carry the future of our R&D enterprise. To be at the 
frontier, they need research opportunities second to none. This is the 
reason why universities--and top universities in particular--need to be 
involved in the national laboratory system.
    National laboratories were created during the mid-20th century to 
provide centers of research excellence that could focus on problems of 
national concern and to create closely cooperating, multidisciplinary 
teams to address long-term scientific problems.
    National laboratories also turned out to be ideal places to design, 
build and operate large national R&D facilities--we call them ``user 
facilities''--which have become essential for forefront research in all 
the sciences. These are large, one-of-a-kind facilities that attract 
and serve industrial, academic and government scientists from all over 
the nation--indeed, from all over the world--to carry out cutting-edge 
research. These user facilities provide resources, such as intense 
beams of subatomic particles or electromagnetic radiation, that speed 
up experiments by orders of magnitude and open up otherwise 
inaccessible facets of nature to scientific inquiry. Many of the 
important discoveries made in the physical sciences in the second half 
of the 20th century were made at--or were made possible by--user 
facilities. Moreover, most of these user facilities, which were 
justified and built to serve one scientific field in the physical 
sciences, have made significant contributions to knowledge and 
technology in many other fields, including biology and medicine. 
Examples of great value to society and human health include medical 
diagnostics and treatment using physics accelerators, and protein 
crystallography at synchrotron radiation sources.
    The design, construction, and operation of these multimillion-
dollar facilities requires sophisticated, multidisciplinary science and 
engineering approaches and complex management structures that are well 
beyond the means of most academic institutions. Moreover, these 
facilities are too large and have too long-term an investment horizon 
to motivate industry to build and operate them.
    Imagine that an advisory committee to the government recommended a 
national initiative in structural biology to lead to better diagnosis 
and treatment of diseases. This would be an initiative in both the 
physical and biological sciences to understand the structure and 
behavior of proteins found in the human body.
    This initiative would be a billion dollar project with a 5- to 10-
year construction horizon and a 20- to 30-year research lifetime. 
Because of the size of this initiative, funding would likely come from 
DOE's Office of Science, which, in fact, funds many user facilities. As 
you recognize, this example describes exactly what happens with major 
user facilities in our national laboratory system. And that's why DOE's 
Office of Science, under the leadership of Ray Orbach, is preparing a 
multi-year plan for the facilities of the future.
    Scientists from academia and national laboratories use these 
facilities for the new research opportunities. Industry uses them for 
their importance in developing new products and technologies. More 
importantly, national laboratories build and operate such facilities, 
because they have the necessary management and technical resources and 
because they have the scientific and technical staff to support and 
partner with users.
    The most effective way to pursue fundamental understanding and 
knowledge is through an open exchange of ideas that involves 
participation from all three components of the R&D enterprise: 
industry, academia and government. Scientists regularly collaborate 
with each other across these institutional boundaries.
    This type of cooperation also extends across national borders. 
While the U.S. has been and continues to be the overall leader of the 
R&D community, we have a long-standing tradition of mutually beneficial 
international partnerships, especially in the physical sciences. Even 
during the darkest days of the Cold War, the U.S. and U.S.S.R. 
maintained a highly productive ``Joint Program on the Fundamental 
Properties of Matter.'' This and other projects helped keep our 
important channels of communication open with our Soviet colleagues.
    Of course, national laboratories, like all other institutions, must 
be held accountable for performing high-quality work on schedule and 
within budget. The contractors who operate them must be committed to 
being ``best in class'' in all aspects. Because science works at the 
frontiers of knowledge, it is not an easy task to develop metrics for 
measuring excellence, but a number of such metrics exist. Most 
important among these metrics are peer review, awards and prizes--such 
as the R&D 100 Awards, and the Fermi and Lawrence Awards from DOE's 
Office of Science--membership in prestigious professional bodies, such 
as the National Academies of Science, and citations in the professional 
research papers of colleagues.
    Allow me to address the funding needs of the U.S. R&D enterprise. 
It is appropriate for industry to fund projects expected to have near-
term, profitable outcomes, and thankfully, the Federal government 
accepts the responsibility for supporting and encouraging longer-term 
R&D for which the benefits are more likely to accrue to society as a 
whole than to any specific company or industry. Much of the strength of 
the U.S. R&D enterprise comes from its diversity. This diversity is 
reflected in the variety of fields, research-performing institutions, 
and R&D-sponsoring Federal agencies that make up our nation's R&D 
enterprise.
    Over the last century, the physical sciences have provided the 
underpinning of our growing prosperity and security. Because of these 
impressive accomplishments, the ``holy grail'' of simulating a living 
cell in all its complexity is now a realistic goal. This leap in 
biological science would have been impossible without previous work in 
understanding the underlying physical laws, developing new 
instrumentation, and making huge advances in the computer sciences.
    We can expect the physical sciences to continue to provide for 
advances in other sciences and medicine, as well as for the creation of 
new technologies and economic growth. But over the last decade, Federal 
funding for the physical sciences has been neglected. Unless this trend 
is reversed, the research engine will slow seriously that has driven 
more than half our economic growth for the last 60 years.
    To maintain America's economic health, R&D requires a high 
priority. But how high? How do we know when the sciences are receiving 
adequate funding?
    The total scientific enterprise needs enough support to attract and 
retain the ``best and brightest'' on a continuing basis. The way to do 
this is to offer them the resources they need to pursue exciting 
research opportunities. Bright young people are still challenged by 
careers in science and engineering, provided they have stable support 
and the opportunity to participate in world-leading research.
    The DOE's Office of Science continues to be the largest source of 
Federal support for fundamental research in the physical sciences. As 
Chairman Alexander correctly stated in his letter to me, ``The research 
of the Office of Science lays the foundation for many of the current 
and future developments in the applied missions of the DOE in energy, 
defense, and environmental issues.'' The Office of Science has built 
many of the big R&D facilities needed to advance the frontiers of 
knowledge in many fields. These facilities are used each year by more 
than 16,000 scientists and students from every state. In addition, the 
Office of Science supports a dynamic and diverse portfolio of forefront 
research done in universities and at national laboratories throughout 
the nation.
    Compared to other Federal funding agencies, the significant role 
played by the Office of Science in America's R&D enterprise is not 
adequately appreciated. Although the Senate has passed an FY04 budget 
of $3.36 billion for the Office of Science, that office remains 
significantly underfunded. It's up to the Administration and Congress 
to ensure that the foundation for our future is strong; to neglect 
physical science is to jeopardize the entire enterprise.
    My testimony has discussed the ``why'' and ``how'' of a well-
functioning research establishment. In terms of dollars expended, the 
bulk of R&D in the U.S. continues to be performed by industry. The 
science, math, and engineering departments of our nation's top 
universities train the pre-eminent scientists, engineers and research 
managers in the government and other sectors. The role of the national 
laboratories is to expand the reach of universities and together to 
provide the foundations for future industrial enterprises. For our 
system to work, these entities, and the Federal government, must 
understand their respective roles, have the highest regard for each 
other, and deliver research results that will drive our future security 
and prosperity.

    Senator Alexander. Thank you, Dr. Grunder.
    Dr. Richter.

  STATEMENT OF BURTON RICHTER, PH.D., NOBEL LAUREATE, FORMER 
          DIRECTOR, STANFORD LINEAR ACCELERATOR CENTER

    Dr. Richter. Mr. Chairman, thank you for the opportunity to 
testify today. My written testimony includes some charts and I 
hope that you would print that in the record.
    Senator Alexander. We will be glad to.
    Dr. Richter. I have been asked to testify about the impact 
of the DOE science programs. I know them, I know them first-
hand. I have been supported by DOE and its predecessors, ERDA 
and the Atomic Energy Commission, for more than 4 decades and, 
as you said in my introduction, I have been director of one of 
DOE's science labs for quite some time.
    According to the statistics of the National Science 
Foundation science and engineering indicators, the Department 
of Energy is the largest supporter of long-term research in the 
physical sciences in the Federal Government. It is also the 
largest in mathematics and computing and it is number three in 
engineering. DOE's large-scale research facilities are 
essential to the work of more than 18,000 scientists in many 
disciplines from universities, industry, and national 
laboratories.
    Most of the DOE science activity is run through its Office 
of Science. The numbers spent are truly impressive already on 
these things. It is easy to spend money, but it is harder to 
spend it well, and so one needs to take a close look at the 
Department of Energy's programs and ask, are they, are these 
funds being well spent. And they are well spent indeed. You can 
look at any of the branches of the Office of Science and see 
them advancing the Nation's science and technology agenda.
    In computing, the Office of Science operates the largest 
computing facility available for scientific work outside of the 
weapons laboratories. This facility is at the Lawrence Berkeley 
National Laboratory. It runs huge programs in simulation, 
combustion modeling, climate engineering, climate change 
research, etcetera. It is overloaded. Its speed is less than 
what is needed and a new and larger facility is badly needed.
    In nuclear and high energy physics, DOE builds and operates 
some of the world's leading accelerator facilities. The 
scientific output is prodigious, as you can see by counting 
papers, Nobel Prizes, or the number of foreign scientists who 
come to use these facilities. The fusion program has been at 
the forefront of the scientific advances that have led the 
nations of the world to join together in the ITER project which 
you mentioned in your introductory remarks, coming together 
collectively to build the world's first burning plasma 
experiment, a crucial step on the road to learning whether 
fusion energy can really be supplied to energy generation for 
the world's economy.
    Basic energy sciences programs have led to great advances 
in condensed matter physics, materials chemistry. Its 
synchrotron light sources with their X-ray beams millions of 
times the intensity of X-ray tubes have had a revolutionary 
impact, and among those is the development of the field of 
structural biology. About 35 percent of the DOE synchrotron 
light users are funded by the NIH to untangle the structure of 
biologically important molecules.
    The biological and environmental research program was the 
engine for the start of the human genome project, something 
which is not widely appreciated outside of the Department of 
Energy. It was started at a time when the NIH was hesitant to 
begin what seemed to them to be a large, costly, and very long-
term program. The biological and environmental research program 
has a broad portfolio. It plays a major role in climate change 
research and is critical to the development of biological 
remediation systems so important for environmental cleanup.
    I said earlier that the DOE was the largest supporter of 
long-term research in the physical sciences in the Federal 
Government. In a time of large budget deficits, it may be 
imprudent to ask if this source support is enough, but the 
question needs to be asked and I think that is one of the 
points of this hearing. The President's Council of Advisers on 
Science and Technology thinks that it is not enough and it said 
so in its report of last fall, and I am sure Dr. Clough will 
talk about that.
    Industry also thinks it is not. You mentioned the role of 
science and technology in economic growth. It is not just the 
National Academy that says that; it is industry itself that 
says that. It is an odd couple: The Brookings Institution and 
the American Enterprise Institute both agree that that is true.
    As time goes on, the last big thing for industry, like 
telecommunications equipment, laptop computers, cell phones, 
all these become commodities and production and the jobs that 
go with them move offshore to lower cost places. What the U.S. 
economy needs is the next big thing, and the DOE's programs in 
such areas as nanotechnology, quantum computing, or perhaps 
something that has not yet emerged clearly, may very well 
supply it.
    For the record, included in my written testimony is a 
letter to the President on this matter from a collection of 
Nobel laureates and CEO's of high tech industry.* This is also 
an interesting combination coming together to talk about the 
importance of physical science.
---------------------------------------------------------------------------
    * The letter has been retained in subcommittee files.
---------------------------------------------------------------------------
    Mr. Chairman, Congress needs to take a hard look at the 
situation of the physical sciences in the Federal budget. Over 
the last 10 years, as can be seen clearly in the chart behind 
you, the NIH budget has gone up by more than a factor of two. 
That is a good thing. The National Science Foundation is on its 
way to doubling and that is a good thing. The Department of 
Energy's Office of Science is down by 20 percent and that is a 
bad thing.
    Congress and the White House have got to address this 
together. The present situation is bad for the Nation's 
economy, bad for the Nation's security, bad for the long-term 
future of science, and bad for attracting the best and the 
brightest of the students into careers in science. I hope that 
hearings such as this one will initiate the changes that are 
required.
    Thank you.
    [The prepared statement of Dr. Richter follows:]
  Prepared Statement of Burton Richter, Ph.D., Paul Pigott Professor 
             in the Physical Sciences, Stanford University
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify today. I've been asked to testify about the 
impact of the DOE science programs. I know them first hand, since my 
research has been supported by DOE and its predecessors, ERDA and the 
AEC, for more than four decades. I also directed one of DOE's science 
laboratories, the Stanford Linear Accelerator Center, for fifteen 
years.
    According to statistics from the National Science Foundation's 
Science and Engineering Indicators, the Department of Energy is the 
largest supporter of long-term research in the physical sciences in the 
federal government (table attached). It is also the largest in 
mathematics and computing, and is number three in engineering. DOE's 
large-scale research facilities are essential to the work of more than 
18,000 scientists in many disciplines from universities, industry and 
national laboratories. Most of the DOE's science activities are carried 
out through its Office of Science (SC).
    These budgets are truly impressive. However, it is easy to spend 
money, but harder to spend it well. A close look will find that DOE's 
science funding has been well-spent indeed. One can look at any of the 
branches of Office of Science and see its leading role in advancing the 
nation's science and technology agenda.
    In Computing, SC operates the largest computer facility available 
for scientific work outside the nation's weapons laboratories, in the 
NERSC facility at the Lawrence Berkeley National Laboratory. Huge 
programs in physics simulation, combustion modeling, and climate change 
are being run. The computer is overloaded, its speed is less than what 
is required, and a new and larger facility is badly needed.
    In Nuclear and High-energy Physics, DOE builds and operates some of 
the world's leading accelerator facilities. The scientific output is 
prodigious as can be seen by counting papers, Nobel Prizes, or the 
number of foreign scientists that come to use these facilities.
    The Fusion Program has been at the forefront of the scientific 
advances that have led the nations of the world to international 
discussions on collectively building the world's first burning plasma 
facility. This $5 billion facility is a necessary prelude to the 
development of fusion as an energy source.
    The Basic Energy Sciences Program has led to great advances in 
condensed matter physics, materials and chemistry. Its synchrotron 
light sources, with their x-ray beams millions of times the intensity 
of conventional x-ray tubes, have had a revolutionary impact. Among 
those impacts is the development of the field of structural biology, 
and 35% of DOE's synchrotron light users are funded by the National 
Institutes of Health to untangle the structure of biologically 
important molecules.
    The Biological and Environmental Research Program was the engine 
for the start of the Human Genome Project at a time when the National 
Institutes of Health was hesitant to start what seemed to be a large, 
costly and long-term program. BER today has a broad portfolio and plays 
a major role in the U.S. Climate Change Research Program.
    I said earlier that the DOE was the largest supporter of long-term 
research in the physical sciences in the federal government. In a time 
of large budget deficits, it may be imprudent to ask if this support is 
enough, but the question needs to be asked The President's Council of 
Advisors on Science and Technology (PCAST) thinks not and says so in 
its report of last fall, ``Assessing the US R&D Investment''. Industry 
also thinks not. Industry relies on government-funded research for the 
work that will be behind the ``next big thing.'' As time goes on, the 
``last big thing'' (telecommunications equipment, laptop computers, 
cell phones, for example) becomes a commodity, and its production (and 
the jobs that go with it) moves off shore to lower-cost locations.
    The U.S. economy needs this next big thing. DOE's programs in such 
areas as nano-technology, quantum computing, or perhaps something that 
has not yet emerged clearly, may supply it. For the record, I have 
attached a copy of a letter to the President on this matter signed by a 
collection of Nobel Laureates and senior industrial personnel.
    Mr. Chairman, Congress needs to take a hard look at the situation 
of the physical sciences in the federal budget. Over the last ten years 
the budget of the DOE Office of Science has declined, the budget of the 
National Science Foundation has increased by about 50%, and the budget 
of the National Institutes of Health has doubled (analysis attached). 
The increase in funding for the NIH and NSF has been a good thing. A 
recent bill, passed by Congress and signed by the President, authorizes 
a further doubling of the National Science Foundation's budget, also a 
good thing. However, because of the broad portfolio of the National 
Science Foundation, doubling its budget alone would increase the 
funding of the Physical Sciences by only about 15%. Thus, the DOE's 
Office of Science needs attention.
    The present situation is bad for the nation's science, is bad for 
the nation's economy and bad for the nation's security. Action is 
needed and I hope that the lead is taken by the Administration and 
Congress together.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Alexander. Thank you, Dr. Richter.
    Dr. Clough.

         STATEMENT OF DR. G. WAYNE CLOUGH, PRESIDENT, 
                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Clough. Thank you, Mr. Chairman. It is an honor to be 
here today to discuss a very important subject. It is certainly 
a challenge to follow my distinguished colleagues Dr. Grunder 
and Dr. Richter. It is an honor to be with them on this panel 
and also to follow two great leaders in Secretary Abraham and 
Dr. Orbach.
    As you know, having been a former university president, 
that sometimes our job is to be the person who cleans up after 
the big elephant parade. So I feel a little bit like that 
today. Many important things have already been said, but I 
would particularly like to share with you some thoughts that 
have devolved from our discussions on the Science and 
Technology Advisory Panel for President Bush.
    As you said so distinctly, it is really all about jobs, as 
we know that the shift today--we have seen thousands of 
manufacturing jobs and more recently technology jobs going 
overseas. This shift occurs when products that at one time were 
at the cutting edge become more of a commodity. At that point 
in time, countries where wages for skilled positions are much 
lower than ours become more competitive than we are for those 
jobs.
    I think if we are going to maintain the vitality of our 
economy we have to be one of the nations where new and cutting 
edge technology and products are developed, and research and 
development is the key, as we know.
    For the last 2 years it has been my pleasure to serve on 
the President's Council of Science and Technology Advisers, or 
PCAST, and one of the subjects we focused on was optimizing the 
benefit of Federal R&D investments for our Nation and its 
economy. That is certainly a reasonable proposition to pursue 
when you consider that President Bush and his administration, 
and with Congress' support, Federal R&D investment now is the 
highest it has ever been in total.
    In the course of our work, though, it became apparent over 
time that spending patterns for many of the agencies that 
support R&D and the impact of appropriation trends over the 
last decade have kind of taken on a life of their own. A 
central question then arose: Is the Federal investment 
portfolio appropriately balanced to achieve our national 
priorities?
    I was fortunate to chair the panel of distinguished 
scientists and businesspeople that focused on these topics. We 
held numerous hearings with private industry, national labs, 
and universities. As Dr. Richter said, there was a surprisingly 
strong unanimity among all groups from whom we received 
testimony. Our conclusions were sent to President Bush in a 
report filed last year. The primary findings are threefold:
    First, over the past two decades Federal support for R&D 
has declined relative to industrial support overall, but 
Federal support remains the essential element in basic or long-
term research and in funding research conducted at our Nation's 
research universities.
    Second, the balance of the Federal investment package has 
tilted strongly towards the health and life sciences and away 
from the physical sciences and engineering. Funding for areas 
like physics and mechanical and electrical engineering have 
actually declined over the past decade. It has been noted that 
these fields are not only important to the obvious targets, 
such as semiconductors and computing, but also to the health 
and energy industries.
    Third finding: Too few U.S. students are going into fields 
like the physical sciences and engineering. As Dr. Grunder 
indicated, that is a sign that something is not right. It is 
going to be accentuated by the declining interest of 
international students in studying here, which we are already 
seeing, or staying here if they do study here, another trend we 
have already seen that is documented by the National Science 
Foundation.
    I would say that the decline in funding for research in the 
physical sciences and engineering and the commensurate 
significant decrease in funding for Federal scholarship and 
fellowship programs is playing a strong role in this decline. I 
believe that changing these trends is crucial to our Nation's 
future.
    There is some good news on the horizon, but we should be 
aware that the R&D funding for physical sciences and 
engineering comes from a number of different agencies, not one. 
Already, support for NSF has increased, as has been noted, with 
a commitment to future increases, and that is good. But NSF is 
not the only primary support agency for many fields of 
engineering and physical sciences and, as has been noted, the 
DOE Office of Science is the single largest supporter of the 
physical sciences and a strong supporter of engineering 
research, and much of this research funding that comes from DOE 
goes directly to universities around the Nation.
    I would particularly like to commend the Office of Science 
for developing a plan that goes a long way towards addressing 
the issues identified by PCAST. It is seeking to expand funding 
in areas that have been left behind, while adding new support 
for internships, scholarships, and fellowships that will help 
attract U.S. students to pursue studies in areas critical to 
our future.
    The investment plan creates programs that not only will 
engage our research universities, but also will involve less 
research-intensive institutions with predominantly minority 
enrollment, an important aspect for our future.
    The influence of the Office of Science goes well beyond 
that of the traditional granting agency, however, in its 
support for the national laboratories and the encouragement of 
universities to use the unique facilities found there. In my 
written testimony I provide details of some of this in the 
national picture.
    But since I have a short time here, let me focus on the 
experience at George Tech, one of our southeastern 
institutions. Four years ago, George Tech became one of six 
southeastern universities in an innovative program to create a 
formal partnership with Battelle, the University of Tennessee 
involved as well, to participate in the operation of the Oak 
Ridge National Laboratory. As you know, Mr. Chairman, both of 
us coming from the South, the Southeast has been behind the 
curve for many, many years in its use of the national labs and 
its science research.
    This year, George Tech chairs the science and technology 
board of the Oak Ridge National Lab. This enlightened approach 
has allowed six universities to share in operation of the 
laboratory and has substantially increased our active 
involvement, as well as that of our partners that we work with 
around the Southeast and elsewhere.
    It has also led to a willingness to invest our own funds in 
connections to the laboratory. Last year we connected George 
Tech and the lab with a high-speed computer link that is 
200,000 times faster than the fastest dial-up connection. The 
next step involves a new initiative, organized in the Southeast 
and around the country by other universities, but in the 
Southeast with our partners Virginia Tech and Duke University, 
to create the next generation high bandwidth Internet system, 
presently called the National Light Rail System. We will bring 
this to ORNL to allow researchers at George Tech, Duke, 
Virginia Tech, and other universities we will collaborate with 
to provide even more efficient remote access to the wonderful 
new facilities being developed at ORNL, to spread the 
geographic influence of the national lab, particularly at ORNL.
    In conclusion, let me add my endorsement to the proposal 
for the funding of the R&D budget for the Office of Science. It 
is designed to address the Nation's most critical needs and 
will have far-reaching positive impact on a range of 
universities and colleges while assisting in developing the 
next generation workforce.
    Thank you for allowing me to have this opportunity.
    [The prepared statement of Dr. Clough follows:]

         Prepared Statement of Dr. G. Wayne Clough, President, 
                    Georgia Institute of Technology

    Senator Alexander and members of the Senate Committee on Energy and 
Natural Resources, Secretary Abraham, Director Orbach. . . . It is an 
honor to be here today and have an opportunity to discuss the 
importance of basic research in the physical sciences and the role of 
the Office of Science in the Department of Energy in supporting it. I 
have been asked to speak more specifically to the importance of basic 
research and a balanced research portfolio from the perspective of the 
President's Council of Advisors on Science and Technology (PCAST), of 
which I am a member, and to the importance of the relationship between 
research universities and the Office of Science from the perspective of 
a research university president.
    Over the past century, research and innovation in science and 
technology have become the source and driving force of the leading-edge 
products and services that have given the United States is economic and 
military leadership. Our continued economic prosperity, national 
security, and energy sufficiency are based on our ability to discover 
new knowledge and develop new technology, and increasing competition 
from around the world means we cannot afford a leisurely approach to 
that task. I serve on the executive committee of the U.S. Council of 
Competitiveness, whose research indicates that the United States needs 
to be among the leaders if not the leader in every major field of 
research if we are to sustain the innovation that drives our prosperity 
and world leadership.
    As a member of PCAST, I have a unique opportunity to look broadly 
at the federal government's research and development portfolio as a 
whole. When you do that at the 30,000-foot level, three important, 
overarching characteristics emerge:
    First, the portfolio must have length. The time span from the basic 
research to the working implementation of a technological application 
is often decades. It will be too little too late if you wait until the 
need is pressing to ramp up the research. For example, it took Raymond 
Davis, Jr. thirty years of research at DOE's Brookhaven National Lab to 
capture solar neutrinos, proving that fusion provides the Sun's 
energy--an achievement that won him the 2002 Nobel Prize for Physics--
and his research was based on other work conducted 70 years ago. 
Similarly, today's semiconductors emerged from basic research in 
quantum mechanics in the 1940s. The Internet that is so essential to so 
many commercial applications today is based on research from the 1960s 
and 70s. Basic research in fields related to energy has become 
especially important. According to the advisory committee for Basic 
Energy Sciences, which is the largest program in the Office of Science, 
world energy needs are expected to more than double over the next 50 
years and the technology does not yet exist to meet them. Creating that 
technology depends on significant scientific breakthroughs generated by 
fundamental research, primarily in the Office of Science.
    The largest provider of the fundamental research on which industry 
bases its innovations is research universities and national 
laboratories, and it is funded largely by the federal government. 
Industries are reluctant to do basic research, because it is seldom 
clear exactly who will profit or when, and industry labs to conduct 
long-term research have all but disappeared. According to the National 
Council on Research, for example, the computing and semiconductor 
industries devote less than five percent of their research budget to 
basic research. Yet Council on Competitiveness studies indicate that 
almost three-quarters of industrial patents cite publicly funded 
research as the basis for their invention. Much of this research is 
conducted or sponsored by the Office of Science. It is the ``seed-
corn'' on which the next generation of industry products and services 
will be based and which will provide the solutions to problems like 
national security and an ample supply of clean energy.
    The second characteristic of our national research portfolio must 
be breadth. Many of the problems and opportunities facing us today 
require the collaboration of multiple disciplines, and the detrimental 
impact of an unbalanced R&D portfolio will be much broader than the 
individual disciplines that are short-changed. Last fall, PCAST 
cautioned that the federal R&D portfolio was becoming unbalanced as a 
result of the doubling of the budget for the National Institutes of 
Health. Advances in biomedical research are grounded in fundamental 
research not just in biology, but also in chemistry and physics, and in 
electrical and mechanical engineering, which provide insight into the 
operation of living systems. These disciplines have seen a declining 
level of federal support over the past decade, and their continued 
neglect will have a negative impact on the life sciences as well as the 
physical sciences and engineering.
    However, correcting that imbalance will not be a neat and tidy 
exercise, because research in the physical sciences is spread across a 
number of agencies and funding for it passes through a number of 
different Congressional committees. Congress is presently focused on 
increasing the budget for the National Science Foundation, which is 
laudable but by itself will not do the job. The single largest 
supporter of basic research for the physical sciences for the past 
decade is not the NSF, but the Office of Science in DOE, which provides 
more than 40 percent of the funding. For example, although the NSF 
sponsors some research in physics, 70 percent of the federal physics 
portfolio is in the Office of Science, including 90 percent of the 
research in high-energy physics and 85 percent of the research in 
nuclear physics.
    Third, any research program is only as good as the researchers who 
do the work. Over the past several decades, the United States has grown 
increasingly reliant on foreign talent in its science and engineering 
research. By the late 1990s, almost half of the Ph.D.s awarded by U.S. 
universities in computer science, engineering, and mathematics went to 
international students. Now, however, R&D operations are beginning to 
move abroad and international universities are improving the quality of 
their educational programs. As a result, fewer international students 
are coming to the United States for graduate study and an increasing 
number of them return home upon graduation. The number of Ph.D.s award 
in the United States in the sciences peaked in 1998. Engineering Ph.D.s 
peaked in 1996 and had declined by more than 15 percent by 1999. White 
males have traditionally comprised the science and engineering 
workforce, and these sectors are falling behind as women and minorities 
increase in the overall workforce.
    Federal funding of university research is seen by graduate students 
as a bell-weather for career opportunities in research. They flock to 
fields in which federal R&D funding is strong and shun those for which 
it is stagnant or declining. This trend is not merely a reflection of 
the increase or decrease in graduate fellowships that accompany federal 
R&D funding. It holds for the broader graduate student body and is, in 
fact, strongest among students who are not receiving any federal 
assistance at all. As research emphasis shifted to the life sciences, 
the number of full-time graduate students in the physical sciences 
declined. From 1993 to 2000, the number of full-time graduate students 
in physics declined by more than 20 percent and the number in chemistry 
declined by almost 10 percent. Federal support for basic research in 
the physical sciences is very important to producing the talent the 
nation needs in these fields.
    While federal funding for research conducted at universities 
invariably involves graduate students, we have been witnessing the 
erosion in recent years of federal support specifically for fellowships 
and dissertation awards. The funds appropriated to support DOE 
fellowships and dissertation awards saw an especially dramatic decline 
during recent years when the focus has been on the life sciences. DOE 
fellowship and dissertation award recipients decreased from more than 
1,000 students in 1995 to less than 170 in 2000, and that number is 
even smaller today. This decline in federally funded fellowships is of 
particular concern to PCAST.
    If we want to maintain our standard of living and our position of 
world leadership, it is crucial that we invest in long-term, 
fundamental research, which is conducted largely at universities and 
national labs; that we maintain a balance across the disciplines so 
that they move forward together; and that we pay attention to the 
education of the next generation of scientists and engineers. All of 
these things on which the well-being of future generations depends are 
essentially in the hands of Congress.
    All three of these essential characteristics of a vibrant federal 
R&D program also come together in the DOE Office of Science. The Office 
funds basic research that will both provide the necessary balance in 
our national portfolio and lay the groundwork for the innovations on 
which our national security, energy efficiency, and economic prosperity 
rest. The Office also promotes the education of the next generation of 
research scholars in the physical sciences by providing opportunities 
for them to engage in research, counteracting to some extent the 
declining number of DOE fellowships. One-third of the $3 billion budget 
of the Office of Science supports university research involving 
approximately 250 universities in 49 of the 50 states and engaging tens 
of thousands of graduate and post-graduate students. The Office also 
offers students opportunities for engagement at its national labs.
    The Office of Science has multi-faceted relationships with the 
nation's research universities that are unique among federal agencies. 
Beyond the usual avenue of providing grants and contracts for research 
conducted at universities, the Office offers university researchers 
access to the extraordinary facilities of its system of ten national 
laboratories and fourteen technology centers. This unique arrangement 
allows for maximum utilization of expensive research tools like the 
Spallation Neutron Source at Oak Ridge National Lab, the National 
Synchrotron Light Source at the Brookhaven National Lab, and the 
Nuclear Magnetic Resonance Spectrometer at the Pacific Northwest 
National Lab. Some of these facilities are one-of-a-kind in the world, 
and no other entity in the world controls the range of them that the 
Office of Science does. Access to unique research resources like these 
provides incredible opportunities for university research scholars to 
move their work forward--opportunities that are not available through 
any other means.
    But the relationship between the national labs and research 
universities extends beyond allowing access to unique facilities. Five 
of DOE's national labs and technology centers are located at research 
universities, and others have close working relationships with research 
universities. Georgia Tech, for example, has a close working 
relationship with Oak Ridge National Laboratory in Tennessee. We are 
one of six universities that as a consortium have a formal partnership 
with Battelle to participate in the operation of the Oak Ridge National 
Laboratory and to help promote and manage collaborate partnerships 
among 87 members of the Oak Ridge Associated Universities and the 
national lab. Last year we connected Georgia Tech and Oak Ridge 
National Lab with a high-speed computer link that is 200,000 times 
faster than the fastest dial-up connections typical of home computers. 
In addition to promoting collaboration and data sharing between 
researchers at Georgia Tech and Oak Ridge, this powerful computer link 
also forms the connecting point between the Department of Energy's 
ESnet and Internet2, which is a high-speed network that connects the 
nation's top-tier research universities. Establishing this broader link 
through Georgia Tech and Oak Ridge National Lab was a logical step 
because Georgia Tech is the hub through which research universities 
throughout the Southeast are connected to Internet2, and Oak Ridge's 
Center for Computational Sciences is the primary site for DOE's 
Scientific Discovery Through Advanced Computing, an initiative that 
involves extensive partnerships between 13 DOE labs and technology 
centers and about 50 universities to address computing problems of 
national importance. The new high-speed connecting linking two powerful 
computer networks will allow the partnership between the Office of 
Science and the nation's leading research universities to evolve to a 
new level of collaboration in research and education.
    This multi-faceted working partnership between Georgia Tech and Oak 
Ridge National Laboratory is just one example of many similar 
relationships between universities and the national labs of the Office 
of Science. These close relationships are essential to the important 
task aligning the research work of the national labs and the work of 
the nation's research universities, so that our efforts are correlative 
and collaborative, and we realize the maximum progress and potential 
from our work.
    Senator Alexander and members of the committee, this concludes my 
prepared statement. I will be glad to answer any questions you might 
have.

    Senator Alexander. Thank you, Dr. Clough.
    Senator Levin of Michigan and I have introduced legislation 
that would increase funding for the physical sciences from 
about $3.3 to $5.4 billion by 2008, which are the authorization 
figures in the energy bill that is being debated on the Senate 
floor this week.
    I have a couple of questions I would like to ask the three 
of you. It was mentioned that two-thirds of research is done by 
industry. What is the Government then uniquely suited to do? I 
heard the words ``long-term,'' ``high risk,'' ``large.'' Maybe 
there are some things that are more of a public character than 
a private character.
    If one-third of the research is government-supported, what 
should be the characteristics of that research?
    Dr. Richter. The part that the Government supports is 
really the critical part, the high risk part, the kind where 
you do not know what the payoff is going to be where you start 
it. There is a study that was done and published a few years 
ago that said about 75 percent of the prior art cited in 
industrial patents comes from government-funded research. So 
the foundation on which industry builds is actually the 25 
percent. If you wipe out the 25 percent, the engine is going to 
run out of gas and it is going to run out of gas in some time 
like 10 or so, 10 or 15 years, and then the innovations of our 
industry will start going away.
    Senator Alexander. Dr. Clough or Dr. Grunder, do you have 
any?
    Dr. Grunder. Very adequately described. I mean, the Federal 
Government should fund this high risk, high payoff research 
because it accrues to the society and the economy as a whole 
and not to specific individuals. It is very essential for the 
whole enterprise.
    Senator Talent: I would say also when we speak about 
industry funding research, that they do a certain amount of 
that with universities. Georgia Tech for one, we are usually in 
the top 5 percent of work that we do with industry, but even so 
that is only about 25 percent of our funding at tops. So the 
Federal Government is a key to sustaining the research that we 
do at universities and encouraging our collaboration with 
private industry.
    I guess the one signal difference between the research 
private industry would do and the research universities would 
do, other than what my colleagues have said, is we educate the 
workforce of the future. When we do research we are educating 
young people. We are preparing them to take important roles in 
society. And if we are not doing that, you are going to lose 
the seed corn for the future.
    Senator Alexander. This chart really tells the picture of 
the subject of our discussion: the excellent commitment our 
country has made with NIH and NSF, those lines are going great; 
but the Office of Science is not so good. It looks to me, 
looking at the years we are talking about, like fairly 
bipartisan neglect.
    How did that happen? What is the explanation for that? Sir, 
Dr. Grunder?
    Dr. Grunder. Mr. Chairman, the relationship between 
fundamental research in technology and the economic wellbeing 
of the Nation is not as apparent as the health of the Nation 
and therefore neither to the man on the street nor to the 
Senator or Congressman as evident. So that is certainly one 
factor.
    The second factor is with having done marvelously in the 
20th century and sort of laid a foundation, is that not enough? 
You know, do we not have the foundation now and can we continue 
building the house?
    Of course, reality is you do need to enlarge your 
foundation to carry the ever-increasing economy of the Nation 
and, for that matter, of the world, because what has not been 
mentioned, the early R&D is indeed international, worldwide in 
character.
    Senator Alexander. Dr. Richter.
    Dr. Richter. I think there is another problem and that is a 
misunderstanding of who is funding what when Congress 
appropriates money. If you look at that chart, you see the 
National Science Foundation going up by more than the DOE is 
going down. But what is not recognized is that the NSF funds a 
lot of things and not very much is in the physical sciences.
    When I talked to the OMB people about 6 months ago, their 
analysis said if you doubled the NSF and they kept their 
proportion of funding the same you would increase the funding 
for the physical sciences by 15 percent. So I think people 
really think if they put a lot of money into the NSF they are 
taking care of science. In fact they are taking care of a lot 
of fields of science and they are not taking care of the 
physical sciences.
    Senator Alexander. Dr. Clough.
    Dr. Clough. If I might extend that also to engineering. If 
you look at NSF, engineering is about 10 percent of the NSF 
budget. So again, while I applaud the support for NSF and the 
PCAST effort and we have supported that increase for sure, it 
does not touch all the bases. If you look at an agency like 
DOE, it is much more targeted, much more specific, and it will 
get directly at some of the issues related to the physical 
sciences and areas like electrical and mechanical engineering 
where Federal funding has actually declined in the past decade.
    So I think there was a period of time when we had the Cold 
War, we had an enemy, we had the attention of almost all the 
members of Congress on a focused issue. As that went away, it 
became less focused, and I think it has taken some time to 
regroup and begin to realize that there is a next generation of 
problems and this next generation of problems require a 
balanced approach to funding all of the aspects of the R&D 
enterprise.
    Senator Alexander. The President's Council of Advisers on 
Science and Technology and I am sure many other groups have an 
answer to this question: If this is what we have been doing for 
10 years with Office of Science investments and if the 
President were to call you into his office and say, okay, I 
hope to be here 6 more years, I would like to correct this, I 
would like to correct the imbalance gradually as the budget 
permits it, where would we start? What would we do first?
    Dr. Clough. I think a good start is the Senate's proposal 
for support of the Office of Science. That is a strong 
proposal. Obviously, we cannot do it all at once and it 
probably would not be advisable. But at the same time, you have 
got to begin and you have got to begin strongly, and you have 
got to recognize the nuances of how you are going to get the 
portfolio balanced.
    I think we have got two good trends going. NIH has 
components in it that are quite positive for engineering and 
physical sciences. The NSF does. But we need to branch out at 
DOE and the Office of Science is another important area that 
must be brought up to speed if we are going to get this 
semblance of parity that we spoke about on the President's 
Council in that report that we sent to President Bush.
    Senator Alexander. Dr. Richter, just following that, the 
Office of Science has some line items. Which line items would 
you add or increase? Where would you start?
    Dr. Richter. The American Physical Society did an analysis 
of DOE's budget and we put out a booklet on the first of the 
year. I would like to submit it for the record, because we 
address just your question where would you put the money. And 
where we got our input is looking at the highest priority 
recommendations of the advisory committees.
    We also discovered something which surprised me even though 
I have been involved in the DOE for a long time. The DOE 
university grant proposals, only 10 percent of them get funded. 
If you increase the grant success rate at DOE to the same as it 
is at NSF and NIH, which is about 30 percent, you would have to 
increase the DOE budget by over a billion dollars just for that 
alone.
    If you ask which are the high priority things that I would 
fund, well, I would have my own list. Ray Orbach is doing a 
very brave job of trying to get an interdisciplinary priority 
list. I think Ray and I probably agree on a large fraction of 
it. We will disagree on some of it. But it is his job to do 
that cross-disciplinary prioritization and I am interested in 
seeing what comes out, what he comes out with, and I probably 
will not fight with him too much.
    [Laughter.]
    Senator Alexander. Dr. Richter, would 30 percent of the 
grant requests be worth funding?
    Dr. Richter. If you look at the proposals that come in, 
there are an awful lot of terrific proposals that come in where 
there simply is not enough money. The NIH says the same thing 
and they fund 30 percent. The NSF says the same thing and they 
fund 30 percent. They could easily fund a lot more which get an 
excellent rating in peer review.
    The DOE is anomalously low and they simply do not have the 
funds to handle all the dimensions of their job.
    Senator Alexander. So they are not inferior. I mean, there 
is room for funding some superior proposals that the money is 
not available for?
    Dr. Clough. Absolutely. The DOE has got the national 
laboratories, it has got big user facilities. These are unique. 
The DOE's responsibility is to maintain those and it has to do 
the best it can on individual grant proposals. It would be nice 
if it had a lot more money to do better than it is doing now.
    Senator Alexander. Dr. Grunder.
    Dr. Grunder. With our economy being dependent on creativity 
and innovation, we need to start on two places. First, we need 
to utilize what we have, and that is the grant proposals and 
other mechanisms. Secondly, of course we need to plan for the 
future, and this is the aforementioned projection of facilities 
in the foreseeable future, because, as you know, these 
facilities take a long time to be realized in a cost-effective 
way.
    Senator Alexander. Well, I would like to thank the three of 
you for your complete testimony and for the conversation we 
have had this morning. This is the beginning of an interest by 
this subcommittee and our full committee and the Congress in 
trying to correct the imbalance we have in the funding that has 
put physical sciences at a disadvantage for the last dozen 
years or so.
    I think what we have learned today is that perhaps the most 
important thing we can do, those of us who believe that the 
imbalance should be corrected, is what the Secretary did a 
pretty good job of, I thought, toward the end of his testimony, 
which is present a compelling vision of where we hope to be; 
and then, second, offer some vivid examples that help those who 
pay the bills, the taxpayers and their representatives, members 
of Congress, understand that our gains in restoring sight, in 
cleaning the air, in creating jobs, in keeping our standard of 
living, all depend at base on the physical sciences and that 
they are an important part of the mix, and that over the last 
10, 12 years we lost sight of that a little bit.
    So it may take a few years to correct. Now is a good time 
to put the spotlight on and your testimony today has been a 
very helpful contribution. I thank you for coming.
    If you have anything else that you would like to submit for 
the record, we would be glad to have it. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]

</pre></body></html>
